OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PHILIPPINES’
EDUCATION QUALITY AND
ACCESS FOR LEARNING AND
LIVELIHOOD SKILLS
PROGRAM, PHASE II
AUDIT REPORT NO. 5-492-10-013-P
SEPTEMBER 23, 2010




MANILA, PHILIPPINES
Office of Inspector General


September 23, 2010

MEMORANDUM

TO:                  USAID/Philippines, Mission Director, Gloria D. Steele

FROM:                Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:             Audit of USAID/Philippines’ Education Quality and Access for Learning and
                     Livelihood Skills Program, Phase II (Report No. 5-492-10-013-P)


This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

This report contains ten recommendations to assist the mission in improving the efficiency and
effectiveness of its education program. On the basis of information provided by the mission in
its response to the draft report, we deleted one recommendation (previously numbered as
Recommendation 9) and renumbered the remaining recommendations accordingly. We
determined that final actions have been taken on Recommendations 6 and 10. For
Recommendations 1, 2, 3, 4, 5, 7, 8, and 9, we determined that management decisions have
been reached. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with evidence of final action to close these
recommendations.

I want to thank you and your staff for the cooperation and courtesy extended to us during this
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ................................................................................................. 1
Audit Findings ........................................................................................................... 5

          Some Reported Results Were Not Reliable ...............................………………5

          Data Reported for a Key Indicator Were Not Consistent
          With the Indicator Definition ............................................................................ 6

          Program Targets Were Not Clearly Defined.................................................... 8

          Key Documents Were Not in Order................................................................. 9

          Mentoring Program Was Not Working as Envisioned ................................... 11

          Oversight of Program Partners Was Weak ................................................... 12

          Potential Corruption Went Unreported .......................................................... 14

Evaluation of Management Comments ................................................................. 16
Appendix I – Scope and Methodology .................................................................. 18
Appendix II – Management Comments ................................................................. 20
SUMMARY OF RESULTS
The Philippine education system has deteriorated significantly in recent decades in
terms of quality and access. The problems include poor teacher training, overcrowded
classes and underequipped facilities, a high dropout rate, and insufficient access to
education for the poor.

To help address these challenges, USAID/Philippines created the Education Quality and
Access for Learning and Livelihood Skills Program (EQuALLS). This program was
designed to address the disparities in education access and quality in areas of Mindanao
most affected by conflict and poverty. The program focuses on elementary education to
strengthen literacy and increase participation and transition rates from one grade to the
next.

The first phase of the program (EQuALLS1) began in October 2004. EQuALLS1 was
authorized to run through September 30, 2009, with total funding of $30.1 million. Two
years into the program, however, the mission recognized that the breadth of activities
being implemented diluted the focus on target groups. The mission therefore decided to
intensify assistance to out-of-school youth and increase the synergies among the
institutions involved in implementing the program.

Thus, the mission ended Phase 1 of the program and in July 2006 awarded a 5-year,
$59.3 million 1 cooperative agreement to Education Development Center, Inc. (EDC), to
implement the second phase of the program (EQuALLS2). EDC is responsible for
providing technical leadership to three partner institutions to implement the program. 2
As of September 30, 2009, USAID/Philippines had obligated $35.6 million and disbursed
$26.7 million for EQuALLS2.

EQuALLS2 has three main objectives: (1) increasing learning opportunities for children
and youth through community support for education, (2) strengthening teachers’ capacity
for teaching English, math, and science at the elementary level, and (3) improving the
relevance of learning and livelihood skills training for out-of-school children and youth.

The objective of the audit was to determine whether EQuALLS2 was achieving its main
goals. The audit found that EQuALLS2 was making progress on increasing access to
quality education and improving the livelihood skills of out-of-school children and youth.
However, the extent of the progress was uncertain because reported results were
unreliable, and key program interventions were not as successful as expected.
Additionally, the audit found that the mission and EDC needed to provide more oversight
so that the program is implemented as planned and that intended results are achieved.




1
    The amount was subsequently increased to $60 million.
2
  Throughout this report, we refer to EDC as the implementing partner, and to the three partner
institutions that EDC leads as program partners. The program partners received subgrants from
EDC to assist in carrying out program activities.


                                                                                             1
To increase access to quality education, EQuALLS2 constructed new classrooms and
made repairs to elementary schools in the targeted areas. As of September 30, 2009,
the program had constructed 45 new classrooms and made repairs to 188, achieving 38
percent and 24 percent of its performance targets for those activities. The program had
also refurbished 235 community learning centers where out-of-school children and youth
attend alternative learning courses, achieving 59 percent of its target.




      As the banner on the roof indicates, the program built these classrooms in the
                  Province of Lutayan. (Photo by OIG, February 2010)

The program also successfully reached out to targeted communities and parent-teacher
associations to involve them more in the schools. Participation by these groups brought
in local contributions matching approximately 97 percent of the funds provided under
community incentive grants. These grants funded school improvement projects such as
providing potable drinking water and establishing libraries and audiovisual programs in
the schools.

To improve the quality of education, the program provided training to teachers to
improve their competency in English, math, and science. Partly because of the training,
students’ scores on national achievement examinations increased. In one of the
program’s targeted regions, the overall scores increased from 62.43 to 66.08 percent in
2009 in the schools where EQuALLS2 was being implemented. The program also
provided math and science kits and thousands of books for the teachers to use in the
classrooms to enhance instruction. Additionally, to effect change at a higher level, the
program trained school administrators on how to formulate goals and plans, monitor
teacher and student achievement, solve problems, negotiate, work with teams, and
mobilize resources.

The program provided basic education courses and workforce development courses to
prepare out-of-school youth to return to school or to increase their employment potential.
For example, the program offered courses in baking and pastry making, installation
wiring, arc welding, small engine (motorcycle) servicing, carpentry, automotive servicing,


                                                                                        2
and consumer electronics servicing. These livelihood skills enabled the youth to begin
business ventures individually or in guilds, or to obtain wage employment.




                 An out-of-school youth repairs a cell phone in a
                 training course conducted by the program in South
                 Cotabato. (Photo by OIG, February 2010)

Despite these accomplishments, the audit disclosed problems with data quality. For
example, some data were unreliable (page 4), and data collected on a key indicator
were not consistent with the definition of the indicator (page 5). In addition, the mission
had not clearly defined the targets it expected the implementing partner to achieve by
the end of the program (page 7) or fulfilled its monitoring responsibilities by approving
key program documents (page 8).

Furthermore, the audit found that improvements in mentoring and oversight were
needed to fully realize the program’s goals. In particular, the audit found that the
teacher-mentoring program lacked structure and support (page 10). Oversight was also
lacking (page 11), as the implementing partner was unaware that one program partner
had opted to build rather than refurbish community learning centers to train out-of-school
youth. The newly built centers were little used and more expensive than renovated
centers would have been. Likewise, the implementing partner was unaware that the
program partner responsible for constructing and repairing classrooms was subject to
extortion, pilferage, and theft—costs of which may have been passed on to the program
(page 13).

To assist the mission in improving the efficiency and effectiveness of its education
program, this report contains recommendations that USAID/Philippines:

•   Develop and implement procedures to validate performance (page 6).

•   Require the implementing partner to develop and implement data validation steps in
    its monitoring visits (page 6).

•   Require the implementing partner to validate fiscal year 2009 performance data and
    certify the accuracy of the data in its management information system (page 6).




                                                                                         3
•   Clarify the definition of the teacher training indicator and require the implementing
    partner to verify and report accomplishments that meet the indicator definition (page
    7).

•   Clarify the targets that the implementing partner is responsible for achieving by the
    end of the program (page 9).

•   Require the implementing partner to include a budget in the remaining annual work
    plans and submit plans for approval before implementation begins (page 11).

•   Require the implementing partner to update the monitoring and evaluation plan to
    reflect the approved targets and new program framework (page 11).

•   Require its implementing partner to develop and implement a plan to (1) identify how
    the mentoring program will be implemented and monitored at schools and (2) assist
    mentors in completing core training courses in the identified subject areas and
    document each mentor’s completion of the courses (page 12).

•   Require the implementing partner to establish written procedures for providing
    adequate oversight of program partners’ activities (page 14).

•   Mandate that all agreements and contracts have a clause requiring partners and
    subpartners to report all suspicion or allegation of waste, fraud, abuse, or corruption
    through appropriate channels including USAID’s Office of Inspector General (page
    15).

The Office of Inspector General has reviewed the mission’s response to the draft report
and determined that final actions have been taken on Recommendations 6 and 10 , and
management decisions have been reached on Recommendations 1, 2, 3, 4, 5, 7, 8, and
9 (page 16). The mission’s written comments on the draft report are included in their
entirety, without attachments, as Appendix II to this report (page 20).




                                                                                         4
AUDIT FINDINGS
Some Reported Results Were
Not Reliable
USAID’s Automated Directives System (ADS), Chapter 203, states that the missions and
assistance objective teams should be aware of the strengths and weaknesses of their
data and the extent to which the data’s integrity can be trusted to influence management
decisions. Additionally, ADS 203 emphasizes that performance data should meet data
quality standards of validity, integrity, precision, reliability, and timeliness and that
missions should take steps to ensure that submitted data are adequately supported.

However, the audit identified data quality problems with the program results reported at
the end of fiscal year (FY) 2009. As discussed below, data reported for two key program
indicators—number of classrooms constructed or repaired and number of teachers
trained—were inaccurate or not timely, thus unreliable. Furthermore, the implementing
partner had yet to validate pertinent data reported for its accomplishments in assisting
out-of-school youth.

Number of Classrooms Constructed or Repaired – At the end of FY 2009, the
implementing partner reported 51 classrooms had been constructed and 226 classrooms
had been repaired. However, the audit disclosed that 6 of 12 sampled classroom
construction projects and 38 of 61 sampled classroom repairs were not completed at the
time of reporting; in fact, the 44 repairs and construction projects reviewed were not
completed until well after the fiscal year ended—some up to 4 months after. The
accurate tallies, contrary to reported results, were 45 classrooms constructed and 188
classrooms repaired as of September 30, 2009.

Number of Teachers Trained – At the end of FY 2009, the implementing partner
reported that 24,738 teachers had been trained. The implementing partner later
adjusted this figure to 37,546—a 66-percent increase in the figure originally reported.
However, audit evidence showed that only 19,143 teachers had been trained by the end
of FY 2009. When asked about the adjustment and the discrepancy, implementing
partner officials explained that they had adjusted the figure because it did not include the
teachers trained in collaboration with another international organization’s education
project because, at the time of reporting, those achievements had not been fully
validated or entered in the implementing partner’s management system.                   The
discrepancy arose because, instead of counting the teachers that were trained, the
implementing partner had counted each time a teacher took a training course, thereby
misrepresenting the results. Contrary to reported results, only 19,143 teachers had
been trained by the end of FY 2009.

Out-of-School Children and Youth Assisted – Additionally, the audit disclosed that
the implementing partner had not validated reported data pertaining to the interventions
for out-of-school children and youth. Reported performance data through September 30,
2009, included accomplishments during the transition period from EQuALLS1 to
EQuALLS2. This transition period covered the first 12 months of EQuALLS2 before the
current program partners came on board to avoid disruption of program activities. The



                                                                                          5
implementing partner reported that during this period 12,108 youth enrolled in basic
education programs and 1,972 youth participated in workforce development programs.
However, the implementing partner merely relied on the completion reports of the
program partners without validating the data and had yet to import the data into the
management information system for the program.

These inaccuracies in reported results occurred because the mission did not validate
data during site visits, concentrating instead on activity implementation, nor did the
implementing partner validate data during its monitoring activities, which focused on
technical design aspects. The implementing partner also relied on information entered
in the program’s management information system by program partners without
performing validation checks. Similarly, the mission relied on data reported by the
implementing partner without properly validating or verifying the data.

To measure performance effectively and make informed management decisions,
missions must ensure that quality data are collected and made available. USAID
provides its assistance objective teams with extensive guidance to help them manage
for improved results. Therefore, we make the following recommendations.

       Recommendation 1. We recommend that USAID/Philippines develop
       and implement procedures that include data validation steps in site visits
       and document the results.

       Recommendation 2. We recommend that USAID/Philippines require its
       implementing partner to develop and implement data validation steps in
       its monitoring visits and document the results.

       Recommendation 3. We recommend that USAID/Philippines require the
       implementing partner to validate the performance data reported in fiscal
       year 2009 and certify the accuracy of the data in its management
       information system.

Data Reported for a Key Indicator
Were Not Consistent With
the Indicator Definition
According to Agency guidance, ADS 203, operating units and strategic objective teams
should select performance indicators that are most appropriate for the result being
measured. To assist operating units in selecting appropriate indicators, the guidance
identifies seven criteria that operating units can use. One criterion is that the indicator
should be direct, which means that it should closely track the results it is intended to
measure.

To measure the program’s progress, the mission used the standard definition used
worldwide by USAID to quantify the indicator number of teachers/educators trained with
U.S. Government support. This indicator measures the number of individuals who have
successfully completed a pre- or in-service training program to teach in schools.
Successful completion means that trainees have met the completion requirement of the
structured training program as defined by that program. The guidance also prescribes
that the training last at least 3 working days (24 hours) and that a trainee, even if he or


                                                                                         6
she received training in more than one area or instance of training that year, should be
counted only once.

Most EQuALLS2 teacher training centered on the core training program, with phased
instruction in English, math, or science. As shown in the table, to complete the core
program in math, a teacher would have to attend three phases totaling approximately 9
days of training. According to the standard definition of the training indicator, only
teachers who have completed the core program in one of the subjects should be
counted, and counted only once. However, the implementing partner did not use this
definition in counting or reporting the numbers.

                       Requirements of the Core Training Program
                                             Duration of        Days Needed to
       Core Training       Number of
                                             Each Phase           Complete
         Program            Phases
                                               (Days)              Training
       English                  2                 5                   10
       Math                     3                 3                    9
       Science                  3                 3                    9

Instead, each time an individual teacher attended a phase of the program, the
implementing partner counted the teacher for reporting purposes. Using this method,
the implementing partner reported training 37,546 teachers and achieving 107 percent of
its performance target as of September 30, 2009. However, audit analysis showed that
only 19,143 teachers had been trained by the end of FY 2009. The implementing
partner, therefore, overstated its achievements.

According to the mission, the differences in counting occurred because two forms of
guidance conflicted on how training courses should be counted. In addition to following
the guidance that provides the standard definition of the indicator, the mission was also
required to comply with a mission order that does not state that participants can be
counted only once per year. This difference caused confusion.

Because of the confusion, performance data likely were not consistently collected and
reported. Ultimately, if the effectiveness of the program is evaluated on the basis of
numbers, any doubt about those numbers impairs their utility to decision makers. Data
should reflect stable and consistent data collection processes and analysis methods.
USAID missions and offices should be confident that progress toward performance
targets reflects real change rather than variation in data collection methods. Therefore,
we make the following recommendation.

       Recommendation 4. We recommend that USAID/Philippines clarify the
       definition of the teacher training indicator with the implementing partner,
       in writing, and require the implementing partner to verify and report the
       accomplishments that meet the indicator definition.




                                                                                       7
Program Targets Were Not
Clearly Defined

USAID uses performance indicators to measure actual results compared with expected
results and determine whether programs are progressing toward their objectives.
Agency guidance, ADS 203, requires setting performance targets for each performance
indicator that are ambitious but can be realistically achieved. Performance targets are
specific planned levels of results to be achieved within an explicit timeframe and may be
set for the end of the agreement period or for each year of the program.

Early in the program, in December 2006, the mission and implementing partner agreed
to revise the performance targets originally set in the cooperative agreement by
modifying the agreement. This modification was still in effect at the time of our audit.
Nonetheless, neither the targets the implementing partner included in its FY 2009 work
plan nor some of those reported in the implementing partner’s FY 2009 quarterly reports
matched the modified targets.

Periodic progress reports are the means by which the implementing partner details
progress against results and targets. Progress reports are critical to the mission’s
ongoing monitoring efforts of the implementing partner’s progress. A progress report
should compare actual achievements with targets outlined in the award document and
the work plan. However, targets were elusive, as illustrated in the following examples:

•   Classrooms constructed or repaired. The agreement’s modification established a
    program target of 900 classrooms to be constructed or repaired during the program.
    However, the implementing partner’s FY 2009 work plan showed the program target
    as 600, and the implementing partner planned its yearly activities around meeting
    this target. By doing this, the implementing partner reduced its responsibility for the
    end of the program by 300 classrooms. Yet in its report to the mission for the quarter
    ended September 30, 2009, the implementing partner reverted to identifying 900
    classrooms constructed or repaired as the program target.

•   Community learning centers constructed or rehabilitated. The agreement’s
    modification established a program target of 600 community learning centers to be
    constructed or rehabilitated by the end of the program. In the implementing partner’s
    FY 2009 work plan, however, the implementing partner listed 400 learning centers as
    its target and planned its yearly interventions against this program target (reducing
    its responsibility by 200 centers. The partner reported a program target of 400
    learning centers in its September 30, 2009, quarterly report.

•   Teachers trained. In key documents the implementing partner constantly shifted
    between 35,000 and 24,000 as the program target. For example, the agreement’s
    modification showed 35,000 as the target for the number of teachers to be trained,
    whereas the implementing partner used 24,000 as the program target to plan its
    yearly resources for FY 2009.

•   Number of youth completing skills training program. The original cooperative
    agreement indicated a program target of 20,000 youth completing skills-training
    programs. The agreement modification changed the indicator description to youth
    finding employment or starting their own businesses following training and showed a


                                                                                         8
   target of 80 percent, but did not indicate to what total this percentage pertained.
   Additionally, both the FY 2009 work plan and the September 30, 2009, quarterly
   report showed a program target of 35,000 for the number of persons participating in
   U.S. Government-funded workforce development programs.

According to the implementing partner, targets had caused confusion since the start of
the agreement. Because of the words “cumulative target” in the cooperative agreement,
the implementing partner believed from the onset that the program targets would take
into account the actual accomplishments from EQuALLS1. For example, in terms of
teacher training, the implementing partner considered itself responsible for training
24,000 teachers because 11,000 teachers had been trained in Phase I of the program,
and the program target was 35,000.

The implementing partner sought clarification from the mission in December 2006, and
the agreement was modified. However, according to the implementing partner, the
modification did little to resolve the confusion surrounding the program targets. It was
not until February 1, 2010, that the implementing partner again formally requested
clarification to revise the targets. As of the end of audit fieldwork, the mission had not
approved the request. According to the implementing partner, the need to revise the
program description to reflect new strategies and targets necessitated the request.

The implementing partner has been carrying out activities for 3½ years without being
clear on the targets it is responsible for achieving by the end of the program. Without
clear program targets, the implementing partner may have erroneously and inefficiently
budgeted its time and resources during the most significant years of the program.
Clearly defined and approved program targets are needed to properly plan interventions
and to monitor and evaluate the program’s progress. Furthermore, without defined
program targets, the mission did not have enough information to properly determine
whether the implementing partner’s annual work plans represented an acceptable
approach to achieving the objectives by the end of the program. As a result,
USAID/Philippines risks not achieving end of program targets. Therefore, we make the
following recommendation.

       Recommendation 5. We recommend that USAID/Philippines take
       immediate action to clarify the targets that the implementing partner is
       responsible for achieving by the end of the program. Those targets
       should be clearly communicated and agreed to by the implementing
       partner and incorporated in key performance management documents.

Key Documents Were
Not in Order
Under the cooperative agreement, the mission is required to remain substantially
involved during the performance of the agreement. Substantial involvement includes
approving key program reporting documents such as the annual work plan and the
monitoring evaluation plan. The audit found that the submitted FY 2009 annual work
plan did not include a summary budget, and the mission had not approved the
monitoring and evaluation plan submitted in March 2007. As well, the implementing
partner had not updated this monitoring and evaluation plan as required.




                                                                                        9
Work Plan - The annual work plan describes the activities to be implemented in the
coming year, provides the timeline for implementing those activities, and contains the
annual budget. Section A.10.1 of the cooperative agreement states that the annual work
plan shall include a budget formatted by planned results.

On September 5, 2008, the implementing partner submitted its FY 2009 annual work
plan to the mission for review and approval minus a budget. Months later in January
2009, the mission provided its comments on the work plan. One comment was that a
summary budget should be submitted with the annual work plan. The implementing
partner responded that the budget would be submitted the week of January 5, 2009. Not
having received the budget, the mission nonetheless approved the annual work plan on
February 18, 2009, with the stipulation that the implementing partner comply with
Section A.10.1 of the cooperative agreement. The implementing partner did not submit
the budget until March 27, 2009, approximately 1 month after the work plan was
approved and 6 months after implementation had begun.

According to implementing partner officials, they did not include the budget in the
FY 2009 annual work plan because they were not given a format or any guidance on the
budget desired by the mission. Implementing partner officials further stated that they
received guidance only after the mission completed a financial review of the
implementing partner in December 2008. After receiving clarification from the mission,
implementing partner officials claimed that they immediately submitted and received
approval of the estimated budget. However, the requirement to present the budget by
results forced the implementing partner to reformat the budget, which took additional
time in FY 2010. Therefore, neither the FY 2009 nor the FY 2010 annual work plan
included a budget. At the time of the audit, implementing partner officials stated they
had a budget formatted by results and that the mission would receive both a narrative
annual work plan and an estimated budget by results for the FY 2011 work plan.

Without approving the annual budget, the mission cannot determine whether the
implementing partner will achieve the program objectives with reasonable economy and
efficiency. The mission should be aware of the annual budget for carrying out program
activities.

Monitoring and Evaluation Plan - The monitoring and evaluation plan spells out the
results to be achieved by the program, the indicators to be used to measure
achievement of the results, and the targets for each indicator by year. Section A.10.2 of
the cooperative agreement states that USAID will be involved in monitoring progress
toward achievement of program objectives during the course of the agreement.
Furthermore, the cooperative agreement states that it is the responsibility of the recipient
to update the performance monitoring and evaluation plan as necessary based on
lessons learned during implementation.

The audit disclosed that the mission had never approved the monitoring and evaluation
plan, which the implementing partner had not updated to reflect current implementation
plans. The monitoring and evaluation plan needed to be updated to include a strategic
framework linking program activities to objectives and indicators, proposed targets (and
annual milestones, where appropriate), finalized instruments, and a detailed operational
plan for collecting and analyzing data.




                                                                                         10
The mission’s involvement in the cooperative agreement is critical and is mandated by
Agency guidance. According to the guidance, USAID is always involved in assistance
awards, such as monitoring performance, reviewing reports, and providing approvals.
Therefore, we make the following recommendations.

       Recommendation 6. We recommend that USAID/Philippines require the
       implementing partner to include a budget in the remaining annual work
       plans and submit them for approval before implementation of activities.

       Recommendation 7. We recommend that USAID/Philippines require the
       implementing partner to update the monitoring and evaluation plan to
       reflect the approved targets and new program framework.

Mentoring Program Was Not
Working as Envisioned
According to the cooperative agreement, one of the program’s main goals is to
strengthen teachers’ capacity for teaching English, math, and science. To achieve
sustained results, the program’s strategy is to develop teams of teachers who are
subject matter experts, who provide mentoring and other learning opportunities to the
other teachers in their schools. The mentoring program is designed to expand the
program’s reach by training approximately 25 percent of the 7,000 targeted teachers as
mentors for the remaining 75 percent.

The implementing partner planned to train 1,773 teachers as mentors in one of the
following subjects: English, math, or science. Mentors were expected to complete
approximately four courses of core training in their assigned subject, including a capping
course to learn how to share their knowledge with others. On completing the courses,
mentors were expected to transfer the knowledge, concepts, and strategies learned from
the program to the teachers at their schools who did not participate in the training.

However, we learned that the mentoring program was not effective for the following
reasons:

•   Our site visits disclosed that teachers were not given sufficient time to mentor other
    teachers as intended by the program. Because school principals and administrators
    did not regard mentoring as a priority, they did not allow time for mentoring during
    the school day. Therefore, mentoring could take place only during the teachers’
    breaks or lunch period.

•   No guidelines or standards were available to explain what mentoring involved or how
    teacher-mentors should record the number of teachers mentored. Furthermore, the
    implementing partner had not made clear how it planned to monitor, record, or
    provide technical support during mentoring conducted at schools.

•   Many teacher-mentors had not completed the required training courses or developed
    the needed skills. Although the teacher-mentors tried to carry out the individual
    mentoring concept at their schools, these teachers were not fully prepared to mentor
    others. This was evident from the weaknesses that the implementing partner
    observed in a training session in July 2008. For example, mentors compressed


                                                                                       11
    modules designed for 5- or 3-day training courses into 1 day of training, and mentors
    appeared to lack appropriate knowledge and skills to present the module topics.

•   Fully trained teacher-mentors were in short supply. Audit analysis revealed that only
    11.3 percent of the target schools had access to at least one fully trained mentor in
    each of the core subject areas.

Two proficiency assessments by the Department of Education highlighted the problems
that the audit identified with the mentoring approach:

•   An assessment of English proficiency showed that many teachers were not proficient
    and therefore not competent to act as mentors. Consequently, a significant number
    of schools will not be able to use mentoring to train their teachers.

•   An assessment of math proficiency concluded that mentoring had not increased
    proficiency levels of mentees to acceptable levels, although long-term mentoring had
    produced some benefits.        For example, mentees who received one-on-one
    assistance for 6–10 months on average failed to exhibit any increase in proficiency,
    whereas those with more than 15 months of mentoring showed an almost 30 percent
    increase from their pretest proficiency levels. Similarly, teachers who served as
    mentors for longer periods, 11–15 months, also tended to perform better on the
    posttest.

The mentoring program envisioned by the implementing partner has not been effective
at building the capacity of teachers to teach English, math, and science. Without
immediate intervention from the mission, the benefits of this mentoring program may not
be realized, and the impact of the training program will be severely stunted. It is critical
that the implementing partner properly define the mentoring program and its
methodology—including how and when mentoring should take place—to bring structure
to this program. Therefore, we make the following recommendation.

       Recommendation 8. We recommend that USAID/Philippines require its
       implementing partner to develop and implement a plan to (1) identify how
       the mentoring program will be implemented and monitored at schools and
       (2) assist mentors in completing the core training courses in the identified
       subject areas and document each mentor’s completion of the courses.

Oversight of Program
Partners Was Weak
As the coordinating organization, the implementing partner is responsible for providing
the overall technical management of the program in accordance with the agreement’s
program description. This role includes planning and coordinating the efforts and
activities of the program partners, setting program standards, providing program
management, monitoring and evaluating the technical performance of all its program
partners, and taking the lead on communication and strategic partnership development
efforts.

The implementing partner did not provide adequate oversight of its program partners’
activities. For example:


                                                                                         12
•   The implementing partner instructed program partners to refurbish or improve
    existing buildings to use as community learning centers or classrooms for out-of-
    school children and youth. The implementing partner indicated that although
    construction of new centers could occur in unique situations, it required approval
    from the implementing partner. Despite this, one program partner had constructed
    multiple community learning centers without approval. In fact, the implementing
    partner was unaware that the centers had been constructed instead of refurbished.
    The program partner could not provide documentation justifying why it had built the
    centers instead of refurbishing them, or indicating that the implementing partner had
    approved the construction before it began. Furthermore, before building the centers,
    the program partner appeared not to have considered the number of out-of-school
    children and youth in the area, the accessibility of the centers, or whether qualified
    instructors were available to teach classes at the centers.

    In addition, according to the program partner’s criteria, newly built centers should be
    used for at least 10 years to maximize gains from the investment in construction.
    However, the audit disclosed that only 3 of the 37 newly built centers had been used
    since being constructed, which raised questions about their sustained use. The
    partner gave several reasons for the centers being inactive, including a shortage of
    qualified instructors in the area and the interference of local politics.

    As for refurbished centers, the audit found that only 37 percent of the reported total
    of 235 had hosted recurring alternative learning and workforce development
    activities. The others had not held any alternative learning activities in over a year,
    though some sporadically hosted 1- or 2-day courses for parent-teacher associations
    or teacher-mentoring courses (36 percent), or had not hosted any program activities
    at all (27 percent).

•   One program partner was behind on implementing activities for out-of-school
    children and youth, and was not apt to complete the activities by the end of the
    program. Specifically, as of September 30, 2009, one program partner’s workforce
    development interventions had achieved only 15 percent of the target for number of
    participants in workforce development programs, compared with an average of
    39 percent achieved by the other program partners. However, the program partner
    was operating in the poorest and most volatile area of the Mindanao region, where
    security issues continue to be a major concern.

•   One program partner did not fully embrace the core training program concept for
    teacher-mentors. Instead of training only teachers identified as mentors, the partner
    trained all teachers in the targeted schools. As of September 30, 2009, the partner
    reported having trained 4,075 teachers. According to the program partner, this
    training approach was acceptable because the implementing partner’s policy stated
    that as long as they stayed within budget, program partners could train as many
    teachers as they wanted. Other reasons given as to why the program partner chose
    this training methodology were that many teachers in the program partner’s
    implementation area failed the pretest, good teachers did not participate in training,
    and local government officials who were not happy with the original selection of
    mentors insisted that other teachers attend the training.          According to the
    implementing partner, the program partner was responsible for training 339 teachers
    to become mentors. Instead, the program partner provided training in the three


                                                                                        13
    subjects to all teachers. Because of the approach chosen, no teachers in the
    program partner’s geographic area were fully trained to become mentors.

Coordination and oversight were inadequate to ensure adequate implementation of the
program activities by the program partners. The implementing partner needs to provide
sufficient management and adequately monitor the performance of its three program
partners and to promptly take corrective actions as needed. Therefore, we make the
following recommendation.

       Recommendation 9. We recommend that USAID/Philippines require its
       implementing partner to establish written procedures for providing
       adequate oversight of program partners’ activities.

Potential Corruption Went
Unreported
USAID’s Handbook on Fighting Corruption states that improving accountability entails
efforts to improve the detection of corrupt acts and strengthen sanctions. The audit
disclosed several instances of potential program corruption that were not reported to the
mission or to the implementing partner. Specifically, according to the program partner
responsible for constructing and repairing classrooms, its subpartner was subjected to
illegal checkpoints, theft, and extortion of construction materials. Neither the program
partner nor its subpartner maintained adequate documentation of these incidents;
therefore, it is unclear how much was incurred in losses and whether those losses were
charged to or reimbursed with program funds.

Reported examples included the following:

•   Workers removed from the worksite, and claimed as their own, tools and other
    materials provided during construction.

•   Armed individuals set up barriers along various points in the roads and forced
    passersby to pay a fee. The subpartner usually paid this fee by providing materials
    such as a bucket of paint, a bag of cement, or cash.

•   Local government officials felt they were entitled to materials brought into their
    communities, and such materials often disappeared from worksites. For example, a
    missing generator used to supply electricity to the worksite was found at a local
    government official’s residence.

The program partner gave the auditors one incident report, dated December 23, 2009,
that showed six separate occurrences of loss, theft, or extortion of materials in 9 days.
Even though the total monetary amount of these incidents was marginal, the report
highlights the fact that these incidents were occurring regularly. Furthermore, the
implementing partner and the mission were unaware of these incidents.

According to the program partner, it had an understanding with the subpartner that the
subpartner would absorb any costs incurred through loss, theft, or extortion.
Specifically, the subpartner would not pass on those costs for reimbursement from the
program’s funds. Although the subpartner claimed to absorb the costs resulting from


                                                                                      14
such theft and loss, the subpartner did not document the frequency or materiality of the
occurrences to ensure they were not being passed on to the program.

Further, the audit reviewed 21 classroom repair activities and found that only 7 had
documented cost estimates of the work to be performed. Eleven activities had no cost
estimate documentation, and the remaining three had no documentation at all.
Furthermore, of the seven activities that had obtained cost estimates, four had incurred
cost escalation of as much as 237 percent with no justification or explanation.

Additionally, the auditors discovered that the average actual cost of a classroom repair
with no cost estimate documentation was approximately 20 percent higher than that of a
repair with a documented estimate. This discovery leaves little confidence that
fraudulent losses were not being passed on to the program.

We referred these incidents to our investigators. Nevertheless, we noted that the
mission does not have a policy on addressing and reporting potential corruption and
fraud that partners encounter during program implementation. Without a policy to
document, report, and address potential corruption and fraud arising in the field, the
mission cannot know how material losses are, how often fraud occurs, or how prevalent
fraud is throughout the regions targeted by the program or the country as a whole.
Therefore, we make the following recommendation.

       Recommendation 10. We recommend that USAID/Philippines mandate
       that all agreements and contracts have a clause requiring partners and
       subpartners to report all suspicion or allegation of waste, fraud, abuse, or
       corruption through appropriate channels including USAID’s Office of
       Inspector General.




                                                                                      15
EVALUATION OF
MANAGEMENT COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report
and determined that final actions have been taken on two recommendations, and
management decisions have been reached on eight recommendations. The status of
each of the ten recommendations is shown below.

Final action – Recommendations 6 and 10.

Final actions have been granted on the two recommendations noted above. However,
for Recommendation 10, although there is no current requirement for grantees, the
federal Procurement Fraud Task Force is preparing a regulation that would parallel the
existing requirement for contractors to report fraud.

Management decision – Recommendations 1, 2, 3, 4, 5, 7, 8, and 9.

For those recommendations without final action, the mission intends to perform the
following actions:

For Recommendation 1, the mission is currently developing a mission order outlining the
policies and procedures regarding reporting on site visits. Action is expected to be
completed by February 28, 2011.

For Recommendation 2, the mission will require its implementing partner to submit
documentation on the data validation steps it performs during its monitoring visits, and
the results of such visits. Action is expected to be completed by March 31, 2011.

For Recommendation 3, the mission will require the implementing partner to validate the
FY 2009 performance data and certify to the accuracy of the management information
system data. Action is expected to be completed by December 15, 2010.

For Recommendation 4, the mission has provided clear guidelines and definitions on
how to account for participant training to the implementing partner. Furthermore, the
mission will request the implementing partner to submit an accomplishment report on
this training component that meets both indicator definitions. Action is expected to be
completed by October 29, 2010.

For Recommendation 5, the mission will require its implementing partner to incorporate
the revised and synchronized targets as detailed in Modification 16 of the Cooperative
Agreement in the revised monitoring and evaluation plan, which the mission expects to
be completed by November 15, 2010. In addition, a revised performance management
plan will be completed by January 31, 2011.

For Recommendation 7, the mission will require its implementing partner to submit a
revised monitoring and evaluation plan to reflect the changes in the targets and new




                                                                                     16
program framework consistent with Modification 16 of the Cooperative Agreement.
Action is expected to be completed by November 15, 2010.

For Recommendation 8, a manual was developed to guide the implementers in
implementing and monitoring the mentoring program, which will be institutionalized in the
schools. In addition, the implementing partner has scheduled catch-up training activities
for the next 3 months. Action is expected to be completed by March 31, 2011, for both
activities.

For Recommendation 9, the mission will request the implementing partner to submit
written procedures that consolidate the different oversight and process documents,
including procedures for tracking compliance of partners. Action is expected to be
completed by March 31, 2011.

We determined that management decisions have been reached on Recommendations 1,
2, 3, 4, 5, 7, 8, and 9, and determinations of final action will be made by the Audit
Performance and Compliance Division on completion of the planned corrective actions.




                                                                                      17
                                                                                         APPENDIX I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The purpose of this audit was to determine whether the Education Quality and Access
for Learning and Livelihood Skills (EQuALLS2) program was achieving its main goals in
increasing access to quality education and improving the livelihood skills of out-of-school
children and youth.

To implement the program, USAID/Philippines signed a 5-year, $59.3 million cooperative
agreement with the Education Development Center, Inc. (EDC) on July 28, 2006, which
was subsequently modified to increase the authorized funding level to $60 million. As of
September 30, 2009, obligations and expenditures under the program totaled
approximately $35.6 million and $26.7 million, respectively.

Audit fieldwork was performed from February 8 to May 12, 2010, in Manila, Philippines,
as well as in multiple locations in Mindanao in coordination with EDC and its three
program partner institutions: Synergeia Foundation; Save the Children Federation, Inc.;
and the Education and Livelihood Skills Alliance. 3 The audit covered activities from the
inception of the program on July 28, 2006, until September 30, 2009.

In planning and performing the audit, the audit team assessed relevant controls used by
the mission to manage the program and ensure that its implementing partner was
providing adequate oversight of program activities. These controls included maintaining
regular contact with the implementing partner and obtaining and reviewing quarterly
progress reports on the status of activities in each of the regions covered under the
program, including any significant issues or new developments. The team also
performed the same control review regarding the relationship between the implementing
partner and its three program partner institutions. Additionally, the auditors examined
the mission’s FY 2009 annual self-assessment of management controls (which the
mission must perform to comply with the Federal Managers’ Financial Integrity Act of
1982, Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, 3512) to check whether
the assessment cited any relevant weaknesses.




3
  The Education and Livelihood Skills Alliance (ELSA) is composed of five international and Philippine
nongovernmental organizations led by the International Youth Foundation in partnership with the Ayala
Foundation, the Consuelo Foundation, Philippine Business for Social Progress, and the Petron Foundation.
ELSA was established in 2004 to create and expand opportunities for at-risk youth in Mindanao.


                                                                                                     18
Methodology
To determine whether the EQuALLS2 program was achieving its main goals, the audit
team interviewed staff at the offices of USAID/Philippines, the implementing partner, and
the three program partner institutions. The audit team also held discussions with officials
from subpartner organizations. Through these interviews, we gained an understanding
of the program, identified the key players and their roles and responsibilities, and
learned about the reporting procedures and controls in place for monitoring the program.
Further work to answer the audit objective was divided into three parts in keeping with
the program’s three components: (1) increasing access to education; (2) increasing the
quality of education provided; and (3) improving the livelihood skills of out-of-school
children and youth.

The audit included the validation of key reported results of the program’s activities,
including classroom construction and repairs, community learning center refurbishments,
teacher training, and enrollment of out-of-school youth into alternative learning services.
The audit also included various analytical procedures designed to detect anomalies,
inconsistencies, or other problems in the reported data.

In validating the program’s reported results, the auditors checked supporting information
contained in a database maintained by the implementing partner against documents
maintained by the three partner institutions in the field. Auditors made site visits to 25
elementary schools and 12 community learning centers to verify work performed under
the program as well as to interview teachers, administrators, and students. During these
site visits, audit staff also met with parent-teacher associations, officials from the
Autonomous Region of Muslim Mindanao Department of Education, the Technical
Education and Skills Development Authority, the Notre Dame of Marbel University, and
local government officials to gain a better understanding of the program.

The audit also included a review of applicable procedural guidance, including detailed
flowcharts, relating to the management of specific program components. The samples
chosen for review cannot be projected to the populations they were drawn from, but in
combination with other audit procedures performed, such as discussions with partner
officials and the review of relevant documentation, they give us a reasonable basis for
our audit conclusions.




                                                                                        19
                                                                                    APPENDIX II



MANAGEMENT COMMENTS

                                                    August 31, 2010
MEMORANDUM

TO            :       William S. Murphy, Acting Regional Inspector General

FROM          :       Gloria D. Steele, Mission Director /s/

SUBJECT       :       Audit of USAID/Philippines’ Education Quality and Access for Learning
                      and Livelihood Skills Phase 2 (EQuALLS2) Project


USAID/Philippines wishes to thank the Regional Inspector General for the professional and
constructive manner in which this audit was performed. The Mission agrees that the
implementation of the audit recommendations will help in improving the efficiency and
effectiveness of the Mission’s education activities, as well as the Mission’s operations.

The actions taken and further actions planned by the Mission to address the audit
recommendations are as follows:

Recommendation #1: We recommend that USAID/Philippines develop and implement
procedures that include data validation steps in site visits and document the results.

       Mission Response: Agreed. The USAID mission is currently developing a Mission Order
       outlining the policies and procedures regarding reporting on site visits.

       Based on the action identified above, the Mission requests RIG/Manila concurrence
       that a management decision has been reached.

Recommendation #2: We recommend that USAID/Philippines require its implementing
partner to develop and implement data validation steps in its monitoring visits and document
the results.

       Mission Response: Agreed. At the request of USAID, the implementing partner has
       reviewed, strengthened and is implementing a data validation system, done primarily
       through its management information system staff, regional project officers, and
       monitoring and evaluation officer, and counter-checked during field financial monitoring
       visits by its grant compliance officers.

       USAID will require its implementing partner to submit documentation on the data


                                                                                            20
       validation steps it performs during its monitoring visits, and the results of such visits.

       Based on the action identified above, the Mission requests RIG/Manila concurrence that a
       management decision has been reached.

Recommendation #3: We recommend that USAID/Philippines require the implementing
partner to validate the performance data reported in fiscal year 2009 and certify the accuracy
of the data in its management information system.

       Mission Response: Agreed. USAID/Philippines will require the implementing partner to
       validate the FY2009 performance data and certify to the accuracy of the management
       information system data.

       Based on the action identified above, the Mission requests RIG/Manila concurrence
       that a management decision has been reached.

Recommendation #4: We recommend that USAID/Philippines clarify the indicator definition
with the implementing partner, in writing, and require the implementing partner to verify and
report the accomplishments that meet the indicator definition.

       Mission Response: Agreed. USAID/Philippines has provided clear guidelines and
       definitions on how to account for participant training to the implementing partner, and
       will continue to do so (attached are the ADS 253.1 guidelines, FACTS definition,
       Mission Order 253, and emails providing guidance to the implementing partner on
       participant/teacher training, as Exhibit No. 1).

       Written technical guidelines on the manner and method of counting participant training
       have been provided to the implementing partner. However there are two definitions for
       participant training: one from the Foreign Assistance Coordination and Tracking System
       (FACTS), which the audit utilized. The other definition is from ADS 253.1, which does
       not indicate a minimum number of hours for participant training to be counted. Mission
       Order 253 issued on May 18, 2009 follows this definition.

       The FACTS definition states that “training should be at least three working days (24
       hours) in duration (based on the ADS standard for in-country training)”. The FACTS
       definition should follow, therefore, any change to the ADS standard for in-country
       training. However, the FACTS definition has not been updated to reflect the ADS
       standard.

       The mission has sought clarification with EGAT/ED on this (see email marked as Exhibit
       No. 2), but there has been no clear resolution. In order to account for the diverging
       definitions, the mission has asked the implementing partner to account for both service
       and training counts. Thus, there are two figures: training counts which refer to the total
       number of trainings an individual teacher receives regardless of duration (as per ADS
       guidelines), while service counts refer to the number of individual teachers trained that
       meet the training definition within a fiscal year (as per FACTS definition). The figure of



                                                                                                    21
       37,546 refers to teacher training counts while 19,143 refers to service counts. The
       mission will request the implementing partner to submit an accomplishment report on this
       component that meets both indicator definitions.

       Based on the actions identified above, the mission requests RIG/Manila concurrence that
       a management decision has been reached.

Recommendation #5: We recommend that USAID/Philippines take immediate action to clarify
the project targets that the implementing partner is responsible for achieving by the end of the
program. Those targets should be clearly communicated and agreed to by the implementing
partner and incorporated in key performance management documents.

       Mission Response: Agreed. USAID/Philippines has worked consistently with the
       implementing partner in developing program targets and monitoring the progression of
       meeting program targets in a timely manner. Approved project targets have been present
       from the start and throughout the duration of the project, although there was some
       inconsistency among documents.

       The audit mentions that it was only in February of 2010 that EDC requested formally to
       clarify the targets. However, negotiations for clarifying the targets began as early as
       November of 2008 (please see attached emails marked as Exhibit No. 3). The
       negotiations culminated in the issuance of Modification No. 16 to the Cooperative
       Agreement, dated July 9, 2010 (please see attached excerpts from the Cooperative
       Agreement, pp. 13 and 19, marked as Exhibit No. 4) which addresses the inconsistencies
       in the documentation for the targets.

       The revised and synchronized targets as detailed in Modification 16 to the Cooperative
       Agreement will be incorporated by the implementing partner in the revised Monitoring
       and Evaluation Plan. A revised Performance Management Plan will be prepared by
       USAID. These are the key performance management documents.

       Based on the actions identified above, the Mission requests RIG/Manila concurrence that
       a management decision has been reached.

Recommendation #6: We recommend that USAID/Philippines require the implementing
partner to include a budget in the remaining annual work plans and submit them for approval
before implementation of activities.

       Mission Response: Agreed. The Cooperative Agreement between USAID and EDC
       states that budgets are required under section A.10.1 (attached as Exhibit No. 5). The
       approval of the annual work plans and the incremental funding of the implementing
       partner were withheld pending the submission of budgets (please see attached emails
       detailing USAID requests for summary budgets as preconditions for approval of annual
       work plans, marked as Exhibit No. 6).

       The Mission will continue to require Mission-approved work plans and budgets as pre-
       requisites to obligation of funds to the cooperative agreement.


                                                                                             22
       Based on the actions taken, the Mission requests RIG/Manila’s concurrence that
       management has previously addressed this recommendation, and that this audit
       recommendation be considered closed.

Recommendation #7: We recommend that USAID/Philippines require the implementing
partner to update the monitoring and evaluation plan to reflect the approved targets and new
program framework.

       Mission Response: Agreed. As stated in the Mission’s response to Recommendation #5,
       the implementing partner will submit a revised Monitoring and Evaluation plan to reflect
       the changes in targets and a new program framework consistent with Modification 16 of
       the Cooperative Agreement.

       Based on the above, the Mission requests RIG/Manila concurrence that a management
       decision has been reached.

Recommendation #8: We recommend that USAID/Philippines require its implementing
partner to develop and implement a plan to (1) identify how the mentoring program will be
implemented and monitored at the school level and (2) complete the core training courses for
all mentors in the identified subject areas and document each mentor’s completion of the
courses.

       Mission Response: Agreed. For Recommendation 8(1), USAID, the implementing
       partner, and the Department of Education, initiated the Learning Partnership Program in
       the first quarter of FY2010 as originally planned. The Learning Partnership Program was
       created to address mentoring needs and to strengthen the education and training
       component of the project.

       After an assessment of needs, the LPP Manual was developed jointly with DepED and
       finalized by the second quarter of FY10 to guide implementers (attached as Exhibit No.
       7). FY10 also includes regional workshops with local administrators to discuss the
       specific and concrete steps in the establishment of the LPP in the schools. The third phase
       for the LPP is the institutionalization of the mentoring program in the schools, targeted
       for the last two quarters of FY2010.

       The Department of Education (DepED) Region XII office has already issued Region
       Memorandum No. 86 S. 2010 (attached as Exhibit No. 8) that guides the implementation
       of the LPP in their areas. Discussions are on-going with DepED-ARMM and Region IX
       for the issuance of their respective guidelines, similar to the Region XII issuance on
       institutionalizing the LPP in their areas.

       For Recommendation 8(2), the implementing partner has already identified mentors that
       have not completed the full suite of training, and have scheduled catch-up training
       activities for the next three months.

       Based on the action taken for Recommendation 8(1), the Mission requests RIG/Manila’s


                                                                                               23
       concurrence that action has been taken and requests that Recommendation 8(1) be closed.
       For Recommendation 8(2), the Mission requests RIG/Manila’s concurrence that a
       management decision has been reached.

Recommendation #9: We recommend that USAID/Philippines require its implementing
partner to develop and implement a plan that requires equitable geographic distribution of
fully trained mentors in each of the core subjects in the targeted municipalities.

       Mission Response: We agree that the mentoring program and the geographic distribution
       of mentors is a challenge. USAID can work with DepED to encourage an equitable
       distribution of mentors, but it is beyond the manageable interest of USAID to direct or
       control the deployment of teachers, or to effect changes in the geographic distribution of
       teachers.

       Equitable distribution of mentors is an important part of the teacher mentoring strategy.
       However, the selection of mentors done in 2008 was merit-based, in that only those who
       passed the qualifying examinations administered for mentor identification are trained as
       such.

       There are some schools where no mentors have qualified due to poor teacher capacity,
       and this need cannot be met by mentors from other schools. In these cases, the
       implementing partner has deviated from the mentoring strategy by adopting direct teacher
       training as an alternative to accomplish the project objective of improving instruction
       quality (Intermediate Result No. 2).

       Based on the comments above, the Mission requests RIG/Manila concurrence that this
       recommendation be considered closed.

Recommendation #10: We recommend that USAID/Philippines require its implementing
partner to establish written procedures for providing adequate oversight of program partners’
activities.

       Mission Response: Agreed. USAID will request the implementing partner to submit
       written procedures that consolidate the different oversight and process documents,
       including procedures for tracking compliance of partners.

       Currently, the implementing partner has in place the following procedures for providing
       written oversight guidelines to partner activities. These include:

             Conduct of workshops, and issuance and discussion of annual planning
              guidelines, and providing written feedback leading to finalization and approval of
              partner annual work plans;
             Conduct of regular technical working group (TWG) meetings in all program
              components, and issuance of regular supplemental guidelines and agreements to
              partners based on these TWG meetings;
             Quarterly review and provision of written feedback on quarterly reports submitted



                                                                                              24
             Monthly partner update and feedback meetings, with written summaries to
              partners of agreements and further guidance; and
             Sharing written oversight feedback with partners as a result of EDC or USAID
              observations during field validation visits of partner activities/programs; and
             Regular email feedback based on emerging concerns

          Based on the above, the Mission requests RIG/Manila concurrence that a
          management decision has been reached.

Recommendation #11: Require that all agreements and contracts require partners and
sub-partners to report all suspicion or allegation of waste, fraud, abuse, or corruption
through appropriate channels including USAID’s Office of Inspector General.

      Mission Response: FAR 52.203-13, Contractor Code of Business Ethics and Conduct
      (June 2007), requiring Contractor disclosure of violations of law and false claims, to the
      Office of Inspector General (IG) is included in every Mission contract exceeding $5
      million and with a performance period exceeding 120 days.

      Requiring recipients of grant funding to contact the IG is not a requirement of Part 226 –
      Administration of Assistance Awards to U.S. Non-Governmental Organizations – and
      imposing such a disclosure requirement would exceed the authority of the Mission
      Agreement Officer. Modification of Part 226 to require disclosure of wrong doing should
      be addressed by RIG to the USAID Procurement Executive for discussion.

      As regards compliance, USAID/Philippines relies on the Part 226 requirement of
      grantees, including the implementing partner, to have “effective control over and
      accountability for all funds” and “to maintain written procedures for determining the
      reasonableness, allocability, and allowability of costs in accordance with the provisions
      of the applicable Federal cost principles and terms and conditions of the award,” in
      addition to annual audit under the “Single Audit Act Amendments of 1996” and revised
      OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
      Organizations.”

      Based on these actions, the Mission requests RIG/Manila concurrence that a management
      decision has been reached and that this audit recommendation be considered closed.




                                                                                             25
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
